                         UNITED STATES DEPARTMENT OF EDUCATION

                              OFFICE OF INSPECTOR GENERAL 

                                     501 I STREET, SUITE 9-200
                                  SACRAMENTO, CALIFORNIA 95814
                              PHONE (916) 930-2388 • FAX (916) 930-2390



                                         March 26, 2007
                                                                          Control Number
                                                                          ED-OIG/A09G0023


Dr. Noelia Vela, President
Cerritos Community College
11110 Alondra Boulevard
Norwalk, California 90650

Dear Dr. Vela:

This Final Audit Report, entitled Cerritos Community College’s Verification of Applicant
Information Submitted on the Free Application for Federal Student Aid, presents the results of
our audit. The purpose of the audit was to determine if Cerritos Community College
completed verification of applicant data and accurately reported verification results to the
U.S. Department of Education (Department) for the period July 1, 2005, through June 30, 2006
(award year 2005-2006).




                                      BACKGROUND 



Students apply for Federal student aid by completing a Free Application for Federal Student Aid
(FAFSA), which is processed by the Central Processing System (CPS). The CPS uses the
application information and the statutory needs analysis formula to calculate each applicant’s
expected family contribution (EFC). If the EFC is less than the student’s cost of attendance,
a student has financial need and may be eligible to receive financial aid under the Higher
Education Act of 1965, as amended (HEA), Title IV programs.

The CPS selects applications for verification, which is the process used to ensure that students
and parents report accurate financial and demographic data on the FAFSA. Verification is
required under Subpart E of 34 C.F.R. Part 668. For enrolled students who were selected by the
CPS for verification, the schools verify the accuracy of five items of data: adjusted gross income,
U.S. income tax paid, household size, number of students in the household who are enrolled in
college, and certain untaxed income benefits. Students must provide schools with income tax
returns and other documents to support the reported data. The school has completed verification
when it has either determined that the application data are correct or when the corrected data
have been submitted to the CPS. The school must document verification and maintain a CPS
document in its files showing the student’s final EFC.
Final Report
ED-OIG/A09G0023                                                                                            Page 2 of 8

When a school disburses a Federal Pell Grant for a student, the school is required to report the
verification status of the student’s application to the Department’s Common Origination and
Disbursement (COD) system. 1 As described in the Federal Student Aid Handbook 2005-2006,
“Application and Verification Guide,” the verification status codes are—

    • 	 V – School completed verification of the student’s application. This code is used for both
        applications selected by the CPS for verification and those the school chose to verify
        based on its own criteria.

    • 	 S – The CPS selected the student’s application for verification, but the school did not
        verify the application information because 1) the school participates in the HEA, Title IV,
        Quality Assurance (QA) Program 2 and the student’s application did not meet the school’s
        verification criteria or 2) the school elected not to verify the student’s application because
        the school had reached the 30 percent threshold for required verifications. 3

    • 	 W – The CPS selected the student’s application for verification and the school has
        elected to make an interim Pell Grant disbursement prior to completing the verification of
        the application data. The school updates the code to a V when verification is completed.

    • 	 Blank – Neither the CPS nor the school selected the student for verification.

Schools receive a monthly Pell Verification Status Report from the COD system that shows
students who have been selected by the CPS for verification and have a blank or W status. In
addition, schools can request a Pell Reconciliation Report that shows the verification status of all
students who were selected by the CPS for verification.

Cerritos Community College (Cerritos) is a single-campus, public community college accredited
by the Accrediting Commission for Community and Junior Colleges of the Western Association
of Schools and Colleges. Cerritos has an enrollment of about 21,000 students and offers
associate’s degrees and certificates in more than 200 programs of study. Educational programs
are provided on a standard-term calendar that is measured in semester credit hours.




1
 The Department’s COD system performs a variety of functions related to awarding and disbursing Pell Grants,
William D. Ford Federal Direct Loans, and funds from campus-based programs.
2
  Schools participating in the QA Program use their own criteria for selecting applications for verification that is
tailored to their student population. QA schools are exempt from the requirement to verify 30 percent of student
applications. Cerritos is not a participant in the QA Program
3
  In an Electronic Announcement dated March 9, 2006, the Department explained that schools may report either
an S or leave the verification status blank for students in the excluded category (i.e., incarceration, recent immigrant,
spouse unavailable, parents unavailable, death of the student, applicant verified by another school, Pacific Island
resident, or not an aid recipient). Schools are not required to complete verification for students in the excluded
category.
Final Report
ED-OIG/A09G0023                                                                         Page 3 of 8

Cerritos participates in the following HEA, Title IV programs: Federal Pell Grant, Federal
Supplemental Educational Opportunity Grant, Federal Family Education Loan, and Federal
Work-Study. During the period from July 1, 2004, through June 30, 2005, Cerritos disbursed
about $15.8 million in Title IV funds, which included about $12.5 million from the Federal Pell
Grant Program.




                                      AUDIT RESULTS 



Cerritos had policies and procedures that ensured FAFSA information was verified in accordance
with the applicable HEA provisions, Federal regulations, and Department guidance. Our
analysis of information in the Department’s databases identified 2,790 Cerritos students who had
an application selected by the CPS for verification and received a Pell Grant disbursement for
award year 2005-2006. Our review of Cerritos’ student financial aid files for a sample of
26 of the 2,790 students found that Cerritos properly performed verification by following its
written policies and procedures, obtaining appropriate student-provided documentation, and
accurately reporting changes in application information to the CPS. However, Cerritos did not
accurately report the student’s verification status to the Department’s COD system for 25 of
the 26 students in the sample. In its comments to the draft report, Cerritos concurred with our
finding and recommendation. The comments are summarized at the end of the finding and the
full text of Cerritos’ comments is included as an attachment to the report.


FINDING – Cerritos Did Not Report Student Verification Status to the
          COD System

Only one of the 2,790 students identified in our analysis had a verification status other than blank
in the COD system. The one student was accurately shown with a verification status of V. We
reviewed Cerritos’ student financial aid files for the other 25 students in our sample, who were
randomly selected from the 2,789 students with a blank status in the COD system. Our review
found that the school had completed the verification of those student applications. Thus, the
verification status in the COD system for the 25 students should have been V rather than blank.

The correct verification status code was not reported to the COD system because the financial
aid specialists did not perform a final step in the school’s verification procedure. Cerritos
implemented a new software application for processing student financial aid for award year
2005-2006. The final step of the verification procedure under the new software application was
to enter V in the verification status field of the database used to transmit information to the
COD system. Financial aid specialists had received training on use of the new application, but
the specialists did not receive information on the use of the verification status field.

Also, Cerritos staff were unaware that the Department had been transmitting COD Verification
Status Reports to Cerritos through the new software application. Since May 2006, the
Department had been sending reports for award year 2005-2006 that listed the students who were
selected for verification by the CPS and received a Pell Grant disbursement, but were shown in
Final Report
ED-OIG/A09G0023                                                                            Page 4 of 8

the COD system with a blank verification status code. Since Cerritos had not been accessing the
reports, it was unaware that the verification statuses were incorrect in the COD system.

In response to our finding, Cerritos appropriately updated the verification status for the
25 sampled students from a blank to a V in the COD system. Our review of information in the
COD system found that Cerritos had also changed the verification statuses for other students.
Cerritos’ Acting Financial Aid Director advised us that staff are now regularly obtaining the
COD Verification Status Report to ensure that student verification status is accurately recorded
in the COD system.

Recommendation

1.1 	 We recommend that the Chief Operating Officer for Federal Student Aid take appropriate
      action to ensure that Cerritos’ financial aid specialists are properly recording the verification
      status in the school’s database and regularly reviewing the COD Verification Status Reports
      to ensure that the verification status is being accurately reported to the COD system.

Cerritos’ Comments

Cerritos concurred with the finding. Cerritos stated that its Financial Aid Office has
implemented new business processes for verification and that staff have received training on
recording verification status in the school’s database and performing regular reviews of the COD
Verification Status Reports. Cerritos also stated that a copy of the OIG audit report had been
provided to its independent public accountant (IPA) and that the IPA will include steps in its
review to confirm that staff are properly recording verification status and reviewing the COD
reports.

OIG Response

The actions described in Cerritos’ comments should address our finding, if properly designed
and implemented. We have revised the recommendation that was included in our draft report to
address potential conflicts with audit requirements in Office of Management and Budget Circular
A-133 and to provide FSA with more flexibility in selecting the method used to confirm that
Cerritos appropriately implemented the needed corrective action.
Final Report
ED-OIG/A09G0023                                                                        Page 5 of 8




                 OBJECTIVES, SCOPE, AND METHODOLOGY 



Our audit objective was to determine if Cerritos completed verification of applicant data and
accurately reported verification results to the Department. The audit covered award year
2005-2006. To accomplish our objective, we—

   • 	 Gained an understanding of applicable laws, regulations, and the Department’s Federal
       Student Aid Handbook 2005-2006, “Application and Verification Guide.”
   • 	 Reviewed Cerritos’ audited financial statements prepared by its independent public
       accountant for the fiscal years ended June 30, 2004 and 2005, a recent guaranty agency
       report, and correspondence from Cerritos’ accrediting agency.
   • 	 Gained an understanding of Cerritos’ internal control for the verification process by
       1) reviewing Cerritos’ written policies and procedures, 2) obtaining information on the
       manual and electronic processes applicable to verification and reporting of the
       verification status to the COD system, and 3) interviewing financial aid staff involved in
       the verification process.
   • 	 Evaluated documentation in student financial aid files related to the verification of
       applicant data.

To evaluate Cerritos’ procedures and compliance with verification requirements, we reviewed
documentation in student financial aid files for 26 of the 2,790 Cerritos students who had an
application selected for verification by the CPS and who received a Pell Grant disbursement for
award year 2005-2006. We reviewed the files for the one student that had a verification status
code of V and 25 students randomly selected from the remaining 2,789 students with blank
verification status codes in the COD system.

We relied on data extracted from the CPS and the Department’s National Student Loan Data
System to identify the Cerritos students who had an application selected for verification by the
CPS and who received a Pell Grant disbursement for award year 2005-2006 (sampling universe).
To assess the completeness of the extracted data, we compared the total records on the extract to
totals reported on Department management information reports. During our review of student
financial aid files for the 26 students, we confirmed that the documentation showed that CPS had
selected the students for verification. We concluded that the extracted data were sufficiently
reliable for use in selecting the sample of students reviewed in the audit.

We reviewed information in the COD system to confirm that Cerritos, in response to our finding,
had properly updated the student verification statuses for the 25 sampled students who had a
verification status code of V.

We performed our fieldwork at the Cerritos campus in Norwalk, California. We held an exit
briefing with Cerritos officials on August 3, 2006. Our audit was performed in accordance with
generally accepted government auditing standards appropriate to the scope of the review
described above.
Final Report
ED-OIG/A09G0023                                                                        Page 6 of 8




                            ADMINISTRATIVE MATTERS



Statements that managerial practices need improvements, as well as other conclusions and
recommendations in this report, represent the opinions of the Office of Inspector General.
Determinations of corrective action to be taken will be made by the appropriate Department of
Education officials

If you have any additional comments or information that you believe may have a bearing on the
resolution of this audit, you should send them directly to the following Education Department
official, who will consider them before taking final Departmental action on this audit:

                      Theresa S. Shaw
                      Chief Operating Officer, Federal Student Aid
                      U.S. Department of Education
                      Union Center Plaza, Room 112G1
                      830 First Street, NE
                      Washington, D.C. 20202

It is the policy of the U. S. Department of Education to expedite the resolution of audits by
initiating timely action on the findings and recommendations contained therein. Therefore,
receipt of your comments within 30 days would be appreciated.

In accordance with the Freedom of Information Act (5 U.S.C. §552), reports issued by the Office
of Inspector General are available to members of the press and general public to the extent
information contained therein is not subject to exemptions in the Act.


                                             Sincerely,

                                                /s/
                                             Gloria Pilotti
                                             Regional Inspector General for Audit
Attachment
Final Report 

ED-OIG/A09G0023                                                      Page 7 of 8





             Cerritos Community College’s Comments to Draft Report
February 20, 2007


Gloria Pilotti
Regional Inspector General fur Audit
U.S. Department ofEducation
Office of Inspector General
501 I Street, Suite 9-200
Sacramento, California 95814-2559

Dear Ms. Pilotti,

Thank you for the Audit Report, dated January 25, 2007. Cerritos College concurs with the finding ofthe audit.
As cited in the Audit Report, we appreciate the fact that the audit team from the Office of Inspector General
(OIG) recognized that the Financial Aid Office had policies and procedures in place to "ensure F AFSA
information was verified in accordance with the applicable HEA provisions, Federal regulations, and Department
guidance." We also appreciate that the OIG audit team recognized that "Cerritos College implemented a new
software application for processing student financial aid for award year 2005-2006 and that the specialists did not
receive information on the use of the verification status field."

As cited in the report, once informed of the central issue with the verification process, ''Cerritos-appropriately
updated the verification status for the 25 sampled students from a blank to a V in the COD system." These
records were sent to COD during the week ofthe program review. Once these records were verified, we at
Cerritos College proceeded to update the remaining 2,764 students. These records were updated and successfully
sent to COD on August 3, 2006. Since then the Financial Aid Office has continued to submit to COD the V code
for all files that were selected for verification.

As part of the corrective actions, the Financial Aid Office has implemented new business processes for verifying
records selected for verification. Staffhas been trained on the following:

    •    Properly record verification status in PeopleSoft (school's database)
    •    Regularly review the COD Verification Status Reports

We also concur with the recommendation, ''that the Chief Operating Officer for Federal Student Aid require
Cerritos College to have its independent public accountant, as part of the next scheduled audit, confrrm that
financial aid specialists are properly recording the verification status in the school's database and regularly
reviewing the COD Verification Status Reports to ensure that the verification status is being accurately reported
to the COD system." We provided our independent public accountant with a copy ofthis audit report. The
accountant confrrmed that the steps required in order to review the verification process would be taken. The frrm
will also verify that the Financial Aid Office is regularly reviewing the COD Verification Status Reports.

Once again, thank you. We assure you that the responsible managers and staff of the College will continue to
provide appropriate training to the Financial Aid staff in order to apply, monitor, and meet federal regulations.

Sinc<;rely.



DrINoelia Vela
President/Superintendent

                                     Cerritos Community College District
        1l1lOAlondra Blvd., Norwalk, CA 90650 • 562.860.2451 • Fax562.467.5005 • www.cerritos.edu
